  DEPARTMENT OF HOMELAND SECURITY

   Ofﬁce of Inspector General


  Assessment of Expenditures Related to the
                 First Annual
Transportation Security Administration Awards
 Program and Executive Performance Awards




 Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-04-46                  September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient,
                                           efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                  Contents


Introduction............                                                                                                                  3


    Results in Brief                                                                                                                      4


    Background ......                                                                                                                     5


    Purpose, Scope, and Methodology...................................................................................................7


    Findings ..........                                                                                                                   8


         First Annual Transportation Security Administration Awards Program ....................................8


        Transportation Security Administration Performance Awards.................................................15


         Conclusion and Recommendations..........................................................................................23


Appendices

    Appendix A:          Breakdown of Costs Associated with the First Annual Transportation Security 

                         Administration Awards Program ..........................................................................24

    Appendix B:          Honorary Awards Presented at the First Annual Transportation

                         Security Administration Awards Program .......................................................... 25

    Appendix C:          Example of a Transportation Security Executive Service Performance Award 

                         Recommendation Form and Performance Plan for a Federal Security Director. 26
    Appendix D:          Management Comments.......................................................................................31

    Appendix E:          OIG Evaluation of Management Comments .......................................................35

    Appendix F:          Recommendations ................................................................................................38

    Appendix G:          Major Contributors To This Report .................................................................... 39

    Appendix H:          Report Distribution............................................................................................. 40





   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                                 Page 1

                               Program and Executive Performance Awards 

Contents


Abbreviations


   ATSA    Aviation and Transportation Security Act
   CEI     Comparability Equivalent Increase
   CUPS    Consolidated Uniform Payroll System
   DFSD    Deputy Federal Security Director
   DHS     Department of Homeland Security
   DOT     Department of Transportation
   FAA     Federal Aviation Administration
   FSD     Federal Security Director
   FTR     Federal Travel Regulations
   FY      Fiscal Year
   GS      General Schedule
   MI&E    Meals, Incidentals, and Expenses
   OIG     Ofﬁce of Inspector General
   OPM     Ofﬁce of Personnel Management
   RFQ     Request for Quotes
   SES     Senior Executive Service
   TSA     Transportation Security Administration
   TSES    Transportation Security Executive Service
   TSI     Transportation Success Increase




Page 2        Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                          Program and Executive Performance Awards
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                               On November 19, 2003, the Transportation Security Administration (TSA)
                               honored almost 600 employees, workgroups, and organizations at the ﬁrst annual
                               TSA Awards Program. This ceremony was held on the second anniversary of the
                               signing of legislation that created TSA.1 At the awards program, honorary awards
                               were presented to TSA employees for:

                                     •	 Advancing the mission of TSA;
                                     • 	 Making signiﬁcant intelligence, technological, organizational, and
                                         employee development contributions;
                                     • 	 Creating a model workplace environment, innovation or process
                                         improvements, outstanding leadership, customer service, or
                                         administrative and technical support;
                                     • 	 Improving the welfare of humanity; and
                                     • 	 Contributing to the equal employment opportunity program and
                                         improving workforce diversity.

                               We learned of issues regarding the awards program from a February 2004 news
                               article. This article reported that TSA spent more than $200,000 on an “expensive,
                               high-quality” awards program that included "ﬁrst-rate audiovisual services,"
                               ofﬁcial photographs of award recipients with the TSA Administrator, and airfare
                               and lodging for "a couple [of] hundred" TSA employees and guests. In addition,
                               the article noted that TSA awarded cash bonuses totaling more than $1.4 million
                               to 88 of its senior managers, for an average bonus of about $16,000.2 As a result,
                               we initiated a review of TSA’s expenditures for its awards program and its
                               executive performance awards.




    1
     “Aviation and Transportation Security Act,” Public Law 107-71, enacted November 19, 2001.

    2
     Andersen, Martin Edwin, and Torobin, Jeremy, “Cash-Strapped TSA Spent $200K on Awards Ceremony,” Congressional Quarterly, 

    February 11, 2004.





        Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                 Page 3
                                    Program and Executive Performance Awards
Results in Brief

                  TSA spent approximately $461,745 to host the ﬁrst annual TSA Awards Program.
                  The costs included lodging, transportation, and per diem allowances for award
                  recipients and their guests; services provided by a private events planning ﬁrm;
                  food and beverages; audio visual support; and, production of awards, programs,
                  and photos of award recipients. Although TSA obtained competitive bids for some
                  of the services needed for the award program, it did not solicit competitive bids
                  when selecting a site for the awards program, and did not compare the total costs
                  associated with different site selections or ceremony conﬁgurations.

                  While the costs of transporting and housing recipients for an awards event,
                  the allied costs for plaques, photographs of the ceremony, and a reception are
                  elements commonly incurred in an agency award program and allowed by
                  applicable regulation, in our view TSA’s choices proved to be excessive.

                  In addition, at the end of FY 2003, TSA distributed $1,450,000 in individual cash
                  awards to 88 TSA executive employees for their FY 2003 performance appraisals.
                  According to the most recent data available from the Ofﬁce of Personnel
                  Management (OPM), 49% of all government executive employees received a cash
                  award in FY 2002. At TSA, 76% of its eligible executives (88 of 116) received a
                  cash performance award, which put TSA in the top quartile of all federal agencies.
                  The average award for the 88 TSA executives was $16,477. According to OPM’s
                  data for all federal agencies, the average executive employee cash award in FY
                  2002 was $12,444. TSA’s FY 2003 average award was higher than any other
                  average executive employee award reported by OPM in FY 2002. In addition, we
                  found that TSA used identical, boilerplate language to justify awards for 38% of
                  its executive awardees.

                  Finally, TSA was not able to provide reliable or comprehensive data for its
                  monetary awards and performance recognition program for employees in lower,
                  non-executive grades. However, the data TSA did provide, though incomplete,
                  suggests that a substantial inequity exists in its performance recognition program
                  between executive and non-executive employees.




Page 4       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                         Program and Executive Performance Awards
                              TSA’s awards ceremony and executive performance awards complied with
                              applicable laws and regulations, which give agencies considerable latitude. In our
                              judgment, however, the overall costs of the awards ceremony were unnecessarily
                              expensive. We are recommending that TSA solicit competitive bids for all
                              services and products associated with its annual awards ceremony; ensure that
                              each executive performance award is supported by a justiﬁcation speciﬁc to the
                              employee and with attendant additional detail to support awards in exceptional
                              amounts; and provide more equitable treatment for lower graded employees when
                              making performance award decisions.

Background

                              First Annual Transportation Security Administration Awards Program

                              On November 19, 2001, the Aviation and Transportation Security Act (ATSA)
                              created TSA within the Department of Transportation (DOT) to protect the
                              nation’s transportation systems and to ensure the freedom of movement of people
                              and commerce. On March 1, 2003, TSA was transferred from DOT to DHS
                              pursuant to the Homeland Security Act of 2002.3

                              TSA held the ﬁrst annual TSA Awards Program on November 19, 2003, the
                              second anniversary of its establishment, at the Grand Hyatt in Washington, DC.
                              During the awards program, TSA presented plaques and medals to its employees
                              and others who distinguished themselves through extraordinary professional
                              achievements or who were instrumental in addressing the needs of TSA and the
                              nation’s transportation systems.4 The awards program lasted three hours and
                              was followed by a reception for the award recipients and their guests, totaling
                              approximately 1,100 attendees. The reception was catered by the Grand Hyatt and
                              featured hors d’oeuvres and various sandwiches and ﬁnger foods.

                              TSA distributed the following non-monetary awards at the awards program:
                              (1) individual awards that recognized an employee’s individual efforts; (2)
                              group awards that recognized an individual employee’s contribution as part of
                              a collective group effort; (3) organizational awards that recognized established
                              ofﬁces, divisions, branches, or ad hoc groups assembled to complete special
                              projects; and, (4) special awards that recognized private citizens, industry
                              partners, or other federal, state, or local government employees or agencies who

3
  P.L. 107-296.

4
  Others included industry partners, private citizens, or federal, state, and local government agencies that made signiﬁcant contributions in 

the area of transportation security.


    Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                               Page 5
                                Program and Executive Performance Awards
                              made contributions through acts of valor, partnerships, or lifetime achievement in
                              the area of transportation security.

                              A gold, silver, or bronze medal mounted inside a display case was given to
                              each TSA employee or organization that received an individual, group, or
                              organizational award. None of these awards was accompanied by a monetary
                              reward.

                              Transportation Security Administration Performance Awards

                              In addition to the anniversary celebration at the Grand Hyatt, TSA administers
                              other awards and recognition programs. From November 19, 2001, through
                              March 1, 2004, TSA distributed monetary and non-monetary performance
                              awards not related to performance appraisals to executive and non-executive
                              employees. TSA employees are eligible for monetary awards, such as “Special
                              Achievement” awards and “On-the-Spot” awards, the latter being subject to a
                              $250 limit. The non-monetary awards are: (1) “Time-off” awards, which grant
                              an excused absence; (2) “TSA Preparation” awards, which recognize outstanding
                              achievement as a result of thorough preparation; (3) “Career Service Recognition”
                              awards, which recognize employees for their total creditable service with the
                              federal government; (4) “Distinguished Career Service” awards, which recognize
                              retiring employees with more than 20 years of federal service and who made
                              signiﬁcant contributions; and, (5) “Thanks a Million” awards, which are presented
                              in gratitude for an individual’s accomplishment.5

                              In addition, TSA distributed monetary performance awards to its executive
                              employees based on their FY 2003 performance appraisals. These awards
                              were based on three categories: “impact on program,” “challenges faced and
                              overcome,” and “resource management.”

                              Statutory and Regulatory Basis for TSA’s Award Programs

                              ATSA provides that the personnel management system established by the Federal
                              Aviation Administration (FAA) applies to TSA, except to the extent that the TSA
                              Administrator modiﬁes the system. FAA’s and TSA’s personnel management
                              system is exempted by ATSA from applicable statutory provisions, with certain
                              exceptions.6 Accordingly, the provisions that govern most federal employee
                              incentive awards and the Senior Executive Service do not apply to TSA.

5
  TSA’s Interim Policy on Awards and Recognition, HRM Letter 451-1, November 18, 2002.

6
  Exceptions are Title 5 provisions governing (1) veterans preference, (2) whistleblower protection, (3) labor-management relations, (4) 

anti-discrimination, (5) suitability, security, and conduct, (6) workers compensation, (7) retirement, unemployment compensation, and 

insurance coverage, and (8) appeals to the Merit Systems Protection Board. 

Page 6                  Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                    Program and Executive Performance Awards
                         Because ATSA gave TSA the same framework for a personnel management
                         system as the FAA, TSA followed FAA authority and its own policies in
                         implementing the awards program and distributing employee performance
                         awards. FAA’s Human Resources Policy manual authorizes both monetary and
                         non-monetary (honorary) awards. The manual also allows TSA to fund travel
                         to awards ceremonies and to pay for expenses incurred in recognizing awards
                         recipients. Finally, the DHS, FAA, and federal travel policies authorize TSA
                         to pay for one family member or guest to attend awards ceremonies and these
                         expenditures deemed to be “an appropriate agency expense.” TSA applied these
                         laws and policies to fund the awards program, which included funding award
                         plaques, refreshments, and transportation of award recipients and guests to the
                         ceremony at the Grand Hyatt.


Purpose, Scope, and Methodology

                         We reviewed TSA’s awards program to determine the actual costs incurred
                         in hosting the event and the appropriateness of those costs. In addition, by
                         comparing the number and amount of TSA’s executive employee bonuses to those
                         of other federal agencies, we attempted to determine the reasonableness of TSA’s
                         bonuses.

                         We examined federal statutes and regulations that govern TSA employee travel to
                         attend agency functions, permissible expenditures for federal agencies in hosting
                         awards programs, and monetary bonuses given to TSA employees. We also
                         examined decisions by the Comptroller General involving federal agency award
                         programs.

                         We reviewed billing records and related documents for the services provided
                         by the Grand Hyatt, Renaissance Hotel, Hotel Helix, and other vendors and
                         suppliers. Also, we obtained and reviewed a videotape of the ceremony and other
                         documents pertaining to the conduct of the ceremony; cost records associated with
                         the travel and lodging of award recipients and their guests; and contract and other
                         acquisition documents.

                         We interviewed TSA headquarters ofﬁcials and staff at the OPM. We also
                         interviewed employees from the MarCom Group, Grand Hyatt, Renaissance
                         Hotel, and Helix Hotel.




  Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 7
                              Program and Executive Performance Awards
                           Our ﬁeldwork was conducted from February 2004 to March 2004. This inspection
                           was conducted under the authority of the Inspector General Act of 1978, as
                           amended, and according to the Quality Standards for Inspections issued by the
                           President’s Council on Integrity and Efﬁciency.

Findings

                  First Annual Transportation Security Administration Awards Program

                           TSA held the awards program on November 19, 2003, during which the agency
                           presented non-monetary awards to TSA employees and others who distinguished
                           themselves through extraordinary professional achievements or by having had a
                           signiﬁcant impact on addressing the needs of TSA and the nation’s transportation
                           systems. DHS was informed of TSA’s plan to hold the awards program.

                           Transportation Security Administration’s Determination of Awards Program
                           Location and Format

                           The TSA Chief of Staff assigned the task of initial research for the awards
                           program to a “development team,” comprised of personnel from various TSA
                           ofﬁces. The team reviewed different awards programs conducted by other federal
                           agencies, such as the Census Bureau, United States Coast Guard, United States
                           Customs Service, and Executive Ofﬁce of U.S. Attorneys. In addition, the team
                           was responsible for ensuring that the awards program would be appropriate
                           and consistent with DHS policies. The team believed that they were proposing
                           an awards program consistent in purpose and composition with other agencies.
                           Under the proposal, all TSA employees would be eligible to receive awards, from
                           front line screeners at airports to the most senior agency executives.

                           According to the development team’s staff director, in April 2003, the team
                           identiﬁed the following potential sites in the Washington, DC area: the Ronald
                           Reagan Building; the Mellon Auditorium; Constitution Hall; the auditorium at
                           the Voice of America; and the Crystal City Doubletree Hotel in Arlington, VA.
                           The relevant “summary of procurement action” for the awards program stated
                           that TSA also considered other hotels near TSA headquarters in Crystal City
                           (Arlington, VA), “speciﬁcally the Marriott Crystal City, Marriott Gateway,
                           Embassy Suites Hotel, Hilton Hotel, and the Hyatt Regency Hotel.”7 According to


7
 This document was composed by TSA’s Human Resource Management ofﬁce to show that TSA considered other venues in the
Washington, DC area and invited proposals from them.


Page 8                Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                  Program and Executive Performance Awards
                             the summary, TSA also looked at the availability of an auditorium on the campus
                             of the George Washington University and the Warner Theater in Washington, DC.

                             The most important criterion for choosing the awards program venue was
                             its availability on November 19, 2003, which coincided with TSA’s second
                             anniversary. Also, the venue had to accommodate 600-650 awardees and up to
                             600 guests; be located in metropolitan Washington, DC; be able to host both the
                             awards ceremony and reception in the same facility; and be able to house out-of-
                             town award recipients and guests. The venues listed above that were considered
                             by the team could not satisfy all those requirements.

                             Although the Hyatt Regency in Crystal City could not meet the awards program
                             criteria, its staff entered the event request into the Hyatt corporate database
                             system. As a result, four other Hyatt hotels contacted TSA about hosting the
                             awards program. TSA’s Human Resources Management ofﬁce subsequently
                             determined that three of these hotels were either too far from TSA headquarters
                             or were unavailable for November 19, 2003. However, the Grand Hyatt in
                             Washington, DC could accommodate the logistical requirements of the awards
                             program and, as a result, was chosen as the venue for the awards program.

                             According to the relevant “summary of procurement action” for the awards
                             program, TSA “researched other venues” for “availability and cost” and compared
                             the pricing of the “conference room rate” of the Grand Hyatt to others in the
                             Washington, DC area. Federal agencies are required to announce procurements
                             over $100,000 over the internet, including the website “FedBizOpps.”8 Hotels
                             and other private service providers have access to this website, which facilitates
                             bidding on government contracts. Since the initial estimate of all costs at the
                             Grand Hyatt was less than $100,000, TSA was not required to enter the awards
                             program onto “FedBizOpps” to solicit bids. Although not required, however, it
                             would have been a good business practice for TSA to have solicited competitive
                             bids from venues that could have hosted the awards program. By not announcing
                             the procurement, TSA could not be assured that it received the best value possible.

                             A TSA manager, who was part of the development team and who was the
                             agency contact for hotel billing purposes, also said that competitive bids to
                             host the awards program were not solicited because no other hotels had the
                             date of November 19, 2003, available. TSA did not advertise in any other way


8
 FedBizOpps is an Internet based federal procurement service run by the U.S. General Services Administration. The website
contains information on bidding opportunities, contracts awarded, special notices, and surplus government sales.


    Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards          Page 9
                                Program and Executive Performance Awards
                                the parameters of its awards program venue to facilitate competitive bidding.
                                Therefore, TSA did not conduct an overall cost comparison analysis for all
                                services and products when considering venues that could have hosted the awards
                                program.

                                Costs for TSA’s First Annual Awards Program

                                The deputy director, Ofﬁce of Financial Management, said that TSA budgeted
                                $500,000 for the awards program, which was set aside from TSA’s administration
                                appropriations account. Ultimately, the awards program cost TSA approximately
                                $461,745. Appendix A contains a detailed breakdown of the associated costs.

                                                                                                        Amount
                                                                                                                          Percentage of
                                                          Type of Cost                                    (in
                                                                                                                           Total Costs
                                                                                                        Dollars)
                                 Transportation and Related Allowances - TSA                            $137,148              30%
                                 Employees and Guests
                                 Private Events Planning Company                                        $85,552               19%
                                 Honorary Awards (Plaques and other items)                              $81,767               18%
                                 Lodging for Attendees (3 Hotels)                                       $61,470               13%
                                 Costs Associated with the Grand Hyatt (does not                        $73,839               16%
                                 include lodging)
                                 Photographs and Programs                                                $17,994              4%
                                 Local Transportation                                                     $3,900              1%
                                 National Anthem Singer                                                     $75               <1%
                                                       TOTAL                                            $461,745             100%

                                Costs Incurred for Travel and Related Allowances of Awardees and Guests

                                TSA incurred costs of $137,148 for travel and related allowances of award
                                recipients and their guests. TSA paid $112,028 for the transportation and per
                                diem subsistence (Meals, Incidentals, and Expenses (MI&E)) of out-of-town TSA
                                employees and $25,119 for their guests.9

                                The deputy director, Ofﬁce of Financial Management, said that TSA award
                                recipients and guests were allowed to claim 100% of their full daily MI&E the
                                day of the awards program and 75% of the MI&E on travel days. He said that the
                                allocations for MI&E conformed to applicable Federal Travel Regulations (FTR).

9
    TSA allowed each award recipient to bring a spouse or one blood relative as his or her guest to the awards program.



Page 10                   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                      Program and Executive Performance Awards
                          Hotel Lodging Expenses

                              The Grand Hyatt

                          TSA paid $36,735 for lodging 108 TSA attendees and 80 of their guests at the
                          Grand Hyatt. According to Grand Hyatt billing records, 106 of the rooms were
                          booked for two nights. In addition, TSA paid $515 for three attendees who failed
                          to occupy their rooms. Finally, TSA spent approximately $1,350 for eight TSA
                          employees who were assigned to headquarters, but stayed at hotels located in
                          Washington, DC in order to facilitate the awards program.10

                              Other Hotels

                          TSA paid $9,900 to the Renaissance Hotel in Washington, DC, and $14,835 to the
                          Helix Hotel, also in Washington, DC, for additional lodging for awards program
                          awardees and guests. The coordinator for the development team told us that a
                          “miscommunication” accounted for the need for additional rooms. TSA provided
                          the Grand Hyatt with the number of rooms needed for the expected number of
                          awardees on October 30, 2003, but did not provide the names of the awardees and
                          guests who were to ﬁll those rooms by November 10, 2003, the Grand Hyatt’s
                          deadline to hold the block of rooms permanently. Consequently, the Grand Hyatt
                          relinquished the reservations for some of those rooms. Awardees and guests
                          whose Grand Hyatt reservations were relinquished were referred by TSA to the
                          Renaissance or the Helix, which were within eight blocks of the Grand Hyatt.
                          Overall, TSA paid for 66 rooms that were occupied on November 18, 2003, at the
                          Renaissance. In addition, TSA paid for 60 rooms that were occupied November
                          18, 2003, and 55 that were occupied November 19, 2003, at the Helix.

                          Costs Incurred for Hiring a Private Event Planning Firm

                          TSA paid $172,514, or 37%, of the total awards program costs to MarCom Group,
                          Inc., a private event planning company hired for coordinating aspects of the
                          awards program. A total of $85,552 was paid for event planning services provided
                          under a Statement of Work and contract that provided that the chosen contractor
                          would be responsible for event planning duties to include:


10
   TSA’s Ofﬁce of the Assistant Administrator, Finance and Administration, said that as a “general rule,” TSA employees
assigned to headquarters were not allowed to stay at hotels in the Washington, DC area during the awards program. However,
certain employees assigned to headquarters who were “involved in the production of the program,” which included “very late
night and early morning preparation,” were permitted to stay in hotels during the awards program.

   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards           Page 11
                               Program and Executive Performance Awards
                    • 	 Assisting in structuring an “internal communications campaign” to
                        inform all TSA ofﬁces of the awards program;
                    • 	 Providing copywriting, design, and production of “personal invitations
                        for all award recipients and their guests;”
                    • 	 Providing expertise to assist in developing the awards program agenda
                        while providing necessary logistical support, such as hiring the Armed
                        Forces Honor Guard and singers;
                    • 	 Designing the stage and supporting the logistical needs of the hotel
                        facility;
                    • 	 Providing the photographers, ﬁlm, and related processing;
                    • 	 Providing a “liaison person” to communicate TSA event requirements,
                        such as food and beverages, transportation, and rooming lists, with the
                        hotel facility; and
                    • 	 Providing copywriting, design, and production assistance for the awards
                        program booklet.

               TSA also paid MarCom $81,767 to develop and produce the various types of
               award plaques and other items distributed at the ceremony, such as lapel pins.
               Of these costs, TSA incurred charges of $2,718 for a “rush charge” because the
               plaque designs were not submitted until early November. In addition, TSA paid
               MarCom $5,196 to produce ofﬁcial photographs of award recipients with the TSA
               Administrator, $1,486 for three balloon arches, and $1,509 for directional signage.

               MarCom was the only vendor used for the awards program obtained by
               competitive announcement. TSA issued a Request for Quotes (RFQ) on October
               6, 2003, by which the agency solicited competitive quotes from event planning
               ﬁrms. The deadline for ﬁrms to submit quotes in response to the RFQ was
               October 14, 2003. Each quote was required to contain a technical proposal that
               explained in detail how the ﬁrm would manage the awards program and a cost
               proposal that presented a project cost estimate.

               According to TSA documents, TSA’s Ofﬁce of Acquisition recommended the
               MarCom Group. As a result, the RFQ was emailed to the MarCom Group on the
               same day the RFQ was issued, about 1½ months before the date of the event.
               MarCom submitted both technical and cost proposals on October 13, 2003. The
               technical proposal enumerated how MarCom intended to meet TSA’s expectations
               for the awards program for services, such as graphic design and copywriting, and
               event planning and management. MarCom’s cost proposal presented a project cost
               estimate of approximately $116,500.



Page 12   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
                                In addition to the quote from MarCom, TSA received a quote from L&M
                                Production Design Group, Inc., on October 14, 2003. L&M’s technical proposal
                                was comparable to MarCom’s quote and was considered by TSA. Since L&M’s
                                cost proposal estimate was more than MarCom’s estimate, TSA awarded the
                                contract to the MarCom Group. However, the MarCom Executive Vice President
                                said that his company did not realize that it had won the bid until the end of
                                October 2003. Consequently, work on the awards program started just three weeks
                                before the event date, which required MarCom to accelerate the pace of their
                                work.

                                Reception Costs

                                Food and beverages at the Grand Hyatt, including two coffee breaks and a
                                reception following the ceremony, cost $47,852, or ten percent of the total awards
                                program costs. TSA said that the reception did not include lunch, and that the
                                “ﬁnger foods” served were not enough to feed all attendees. Nonetheless, food for
                                the reception cost $33,183, or about $33 per person.

                                While perhaps standard to hotel catering, many of the items served during the
                                coffee breaks and at the reception were costly. For example, for the coffee breaks,
                                TSA paid $64 for each gallon of coffee and $3.75 for each soft drink. For the
                                reception, TSA paid $1,850 for seven sheet cakes,11 and $1,500 for 3 cheese
                                displays. For both coffee breaks and the reception, TSA paid $7,975 in banquet
                                service charges.

                                Costs for Audiovisual Services

                                In addition to the photographic services paid to MarCom, TSA paid $20,146 for
                                audiovisual services. These services included the rental costs of equipment, such
                                as lapel, podium, table microphones, and an LCD projector. TSA also paid for
                                the labor associated with setting up and dismantling equipment and for video
                                operators who ﬁlmed the ceremony.

                                Costs Incurred for Event Programs

                                TSA paid $12,798, or three percent, of the total awards program costs to a private


11
     Six sheet cakes cost $250 each, while one sheet cake with a logo cost $350.



       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 13
                                   Program and Executive Performance Awards
               printing company for developing and producing the events programs distributed
               at the awards ceremony. According to TSA’s Ofﬁce of the Assistant Administrator,
               Finance and Administration, the event programs were submitted to the printers on
               November 12, 2003. Approximately 2,000 programs were printed for the awards
               ceremony. Each program was printed on high-quality paper stock and contained
               many photographs and sophisticated graphics.

               Other Costs

               TSA paid the Grand Hyatt $5,000 to rent the “Independence Ballroom” for the
               ceremony and $841 for miscellaneous items, such as the ﬂowers displayed on
               stage during the ceremony, shipping charges, and contracting for a private security
               guard the day before the ceremony.

               In addition, TSA paid $3,900 to charter eight buses to transport awards program
               attendees between TSA headquarters in Arlington, VA and the Grand Hyatt in
               Washington, DC. Finally, TSA paid $75 to a singer who sang the National Anthem
               during the ceremony.

               Discussion with OPM

               We sought an OPM opinion on whether the costs incurred by TSA were in
               conformity with the general practices of the federal government or whether they
               may have been excessive. OPM ofﬁcials agreed that the costs incurred to host
               the awards program appeared higher than what other agencies typically spend,
               but they said that the policies on agency awards and awards programs are highly
               decentralized and give each agency considerable discretion regarding the amounts
               an agency spends to recognize its employees.

               Distribution of Awards at the Ceremony

               TSA presented 588 honorary awards to 543 TSA employees and 30 TSA
               organizations. Of the 588 honorary awards, 244 were individual awards, 312
               group awards were given to 306 employees, and 30 organizational awards were
               given to 30 ofﬁces and divisions within TSA. Nine TSA employees received
               both individual and group awards. In addition, one valor award was given to a
               TSA employee, and one lifetime achievement award was given to a retired TSA
               employee.




Page 14   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
                                                                           1 Lifetime
                                                                          Achievement
                                                                             Award        1 Valor Award
                                            30 Organizational
                                                                              <1%              <1%
                                                 Awards
                                                   5%


                                                                                                              244 Individual
                                                                                                                 Awards
                               312 Group Awards                                                                    41%
                                      54%


                                             Honorary Awards Presented at the First Annual Transportation
                                                       Security Administration Awards Program



                               The awards were evenly distributed among employees in all TSA pay bands.12
                               Approximately 70% of the awards were given to TSA employees in pay bands D
                               through J. The D through J pay bands are roughly equivalent to Grades 3 through
                               14 in the General Schedule (GS) pay system. TSA also appeared to stratify the
                               number of awards given according to signiﬁcance. Of the 588 total honorary
                               awards presented, 349, or 59%, were Bronze Medals, 145, or 25%, were Silver
                               Medals, and 92, or 16%, were Gold Medal awards. See Appendix B for a detailed
                               breakdown of awards by pay bands.


                      Transportation Security Administration Performance Awards

                               In December 2003, TSA distributed monetary awards to their executive
                               employees separate from the honorary awards distributed at the ﬁrst annual TSA
                               Awards Program. In addition, throughout the year, TSA distributed non-monetary
                               awards to two executive employees as well as monetary and non-monetary awards
                               to some non-executive employees.

                               Transportation Security Executive Service Performance Awards

                               The executive employees at TSA are known as the “Transportation Security
                               Executive Service” (TSES). Each TSES employee is accountable for both

12
     In TSA, pay bands have replaced the grades in the General Schedule pay system.


       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards              Page 15
                                   Program and Executive Performance Awards
                            individual and organization performance, taking into consideration factors such
                            as improvements in efﬁciency, productivity, and quality of work or service. Each
                            TSES employee has a performance plan that contains the following two critical
                            performance elements:

                           (1) Program/Mission Objectives—includes achieving results in accordance
                           with the Government Performance and Results Act, developing, prioritizing,
                           and aligning program responsibilities with administration strategies, objectives,
                           and goals, and ensuring effective implementation of the strategic plan, including
                           program measurement

                            (2) Executive/Managerial Competencies—includes management/business
                            practices, leadership, and organizational effectiveness

                            An annual performance appraisal must be performed for each TSES. The TSES
                            annual appraisal period is October 1 to September 30. All TSES personnel who
                            served at least the minimum appraisal period of 60 days must be rated.13

                            TSES Monetary Performance Awards

                            According to TSA’s TSES Performance Management System Plan, TSA has the
                            option, but is not obligated, to grant special recognition, awards, and incentive
                            payments to executives who demonstrated extraordinary vision and leadership
                            and who beneﬁted the organization through special achievements.14 These
                            payments include monetary awards, otherwise known as “bonuses,” or “pay
                            adjustments.”15 To recommend a TSES employee for an award related to his/her
                            performance appraisal, the TSES’ rater must complete a TSES Performance
                            Award Recommendation Form. This form should include a general narrative
                            that highlights the TSES employee’s accomplishments of program-speciﬁc
                            performance elements, and should serve as justiﬁcation for the performance
                            award.

                            Federal personnel law mandates that an agency with Senior Executive Service
                            (SES) personnel establish a Performance Review Board (PRB). On February 24,
                            2003, TSA formed a PRB to “ensure consistency and objectivity in appraising
                            and recognizing” TSES performance. The PRB reviews all recommendations

13
   Memorandum on “Transportation Security Executive Service (TSES) Performance Management System,” FY 2003, Transportation 

Security Administration. 

14
   The TSES Performance Management System Plan sets policies for appraising the performance of TSES employees for the FY 2003 

rating period.

15
   TSES employees must be in their position for the minimum appraisal period of 60 days to receive a performance award.



Page 16               Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                  Program and Executive Performance Awards
                            for performance awards and pay adjustments for TSES employees when related
                            to performance appraisals. Following a review of the performance appraisal
                            and award recommendation, the PRB provides its recommendation to the TSA
                            Administrator. The PRB may adjust the amount of each recommended bonus.16 In
                            FY 2003, TSA’s Deputy Administrator led the ﬁve member board.17

                            In December 2003, TSA distributed $1,450,000 in individual cash awards related
                            to FY 2003 performance to 88 of the 116 TSES employees who were eligible to
                            receive an award. The awards were in the amounts of $10,000, $15,000, $17,500,
                            or $20,000.



                                     Number of TSES Employees Who Received Cash Awards
                                                Related to FY 2003 Performance


                                                   40
                                       Employees
                                       Number of




                                                   30
                                         TSES




                                                   20      39                          33
                                                   10                     2                          14
                                                    0
                                                        $20,000       $17,500       $15,000       $10,000
                                                                     Amount of Cash Awards




                            TSA’s FY 2003 award pool was $1,850,000.18 Of that amount, TSA distributed
                            approximately $1,450,000 to TSES employees,19 or approximately eight percent
                            of TSES base compensation. According to OPM ofﬁcials, other federal agencies
                            that are bound by Title 5 are limited to spending a maximum of ten percent of the
                            aggregate career basic SES employees’ pay for executive employee performance
                            awards. In addition, each performance award must be within ﬁve to 20% of the
                            executive employee’s basic pay. Although these provisions of Title 5 do not apply
                            to the agency, TSA stayed within these executive performance award limitations.




16
   Memorandum on “Transportation Security Executive Service (TSES) Performance Management System,” FY 2003, Transportation 

Security Administration. 

17
   Memorandum from Admiral James M. Loy, “Performance Review Board,” February 24, 2003. 

18
   The award pool was equivalent to ten percent of TSES base compensation of $18,485,436.

19
   The amount of unspent funds was transferred to the non-executive employee performance award pool.


     Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards              Page 17
                                 Program and Executive Performance Awards
                            OPM published data for FY 2002 performance and awards for federal
                            executives.20 TSA was more generous than most other federal agencies. OPM’s
                            data indicated that an average of 49% of executive employees at all federal
                            government agencies received a cash award in FY 2002. At TSA, 76% received
                            a cash performance award related to their FY 2003 performance appraisal. While
                            there were agencies with higher percentages, TSA was in the top quartile.

                            No federal agency paid higher average dollar amounts than did TSA. According
                            to OPM statistics, the overall average award for all federal government agencies
                            in FY 2002 was $12,444. TSA’s FY 2003 average award totaled $16,477, a ﬁgure
                            one third higher than the overall FY 2002 federal average. The TSA average was
                            more than any other average award given to executive employees at any other
                            federal government agency.

                                                            Eligible                                                   Percent of
                                                                            Number of
                                     AGENCY               Employees                             Average Award          Employees
                                                                             Awards
                                                          in FY 2002                                                    Awarded
                              AGRICULTURE                          296                209                  $11,153           71%
                              AID                                   19                  8                   $7,442           42%
                              COMMERCE                             215                178                  $10,616           83%
                              DEFENSE                            1,000                205                  $15,732           21%
                              EDUCATION                             63                 38                  $10,302           60%
                              ENERGY                               343                142                   $9,793           41%
                              EPA                                  241                 93                  $15,518           39%
                              FEMA                                  28                  4                   $6,553           14%
                              GSA                                   76                 72                  $12,003           95%
                              HHS                                  342                127                  $10,307           37%
                              HUD                                   64                 33                   $8,515           52%
                              INTERIOR                             184                 60                  $10,243           33%
                              JUSTICE                              258                109                   $9,991           42%
                              LABOR                                124                116                  $10,918           94%
                              NASA                                 356                145                  $12,084           41%
                              NRC                                  140                110                  $14,699           79%
                              OMB                                   53                 22                  $12,500           42%
                              OPM                                   22                 20                  $13,266           91%
                              SBA                                   34                 28                  $15,000           82%
                              SOCIAL SECURITY                      116                 46                  $12,604           40%
                              STATE                                111                 39                  $11,026           35%
                              TRANSPORTATION                       175                 80                  $10,541           46%
                              TREASURY                             533                292                  $15,114           55%
                              VETERANS AFFAIRS                     264                197                   $8,120           75%
                              All Others                           540                381                  $12,444           71%
                              TOTAL                              5,597              2,754                  $12,444           49%
                                           *Source: FY 2002 Annual Agency Reports on OPM Form 1558

20
  Data on performance and awards for federal executives in FY 2002 were the most recent data available from OPM as of August
13, 2004. Unofﬁcially, we understand that the preliminary data for FY 2003 will not differ signiﬁcantly.

Page 18                Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                   Program and Executive Performance Awards
                           TSA ofﬁcials told us that the reason for the higher than average awards was that
                           the end of the FY 2003 performance cycle was the ﬁrst time since TSA came into
                           existence that TSES employees received monetary awards. As a result, the PRB
                           considered a TSES employee’s performance for a two-year period. According to
                           a TSA spokesperson, “you basically need to divide everything by two if you are
                           going to try to…make any comparisons to other agencies, because this was two
                           years’ worth of recipients and awards.”21

                           In addition, TSA attributed the higher than average award to the fact that TSES
                           employees covered under the TSES Performance Management System, unlike
                           other federal government executives, are not eligible for the Presidential Rank
                           Awards program. Under the Presidential Rank Awards program, executive
                           employees may receive a lump-sum payment of 35% of their base pay for a
                           Distinguished Rank Award or a lump-sum payment of 20% of their base pay for
                           a Meritorious rank award. The range of TSES employee performance awards was
                           ten to 17% of their base pay. Finally, TSA told us that all TSES employees who
                           received a cash performance award did not simultaneously receive a pay raise
                           as part of their FY 2003 performance appraisal, thus attributing to higher than
                           average awards. While unusual, it is possible for executive employees at other
                           agencies to receive both a pay increase and a performance award simultaneously.

                           Transportation Senior Executive Service Monetary Performance Award
                           Justiﬁcations

                           We analyzed 88 ﬁles of employees who received a cash award related to a
                           FY 2003 performance appraisal. Each ﬁle should have two documents: an
                           annual evaluation of the employee’s performance and a recommendation
                           supporting the performance award. Of the 88 ﬁles, 34, or 38%, had no individual
                           recommendation and justiﬁcation for the performance award. In addition, the
                           ﬁles did not contain, as part of the performance evaluation process, a narrative
                           showing how those TSES employees met the two critical performance elements
                           of program/mission objectives and executive/managerial competencies. Instead,
                           boilerplate justiﬁcations, language that is used repeatedly without change and that
                           is not unique to an individual and his/her position, were used to address how they
                           met or exceeded performance expectations.




21
   Andersen, Martin Edwin, and Torobin, Jeremy, “Cash-Strapped TSA Spent $200K on Awards Ceremony,” Congressional Quarterly,
February 11, 2004.



    Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                Page 19
                                Program and Executive Performance Awards
                             Twenty-nine, or 85%, of the ﬁles containing boilerplate justiﬁcations were for
                             Federal Security Directors (FSD) or Deputy Federal Security Directors (DFSD).22
                             The following is an example of part of the boilerplate justiﬁcation used on some
                             of the FSDs’ and DFSDs’ TSES Performance Plans to address how they met the
                             ﬁrst critical performance area of program/mission objectives. An example of a
                             recommendation supporting a performance award and the annual evaluation of an
                             FSD’s performance is found at Appendix C.

                                  • 	 Successfully identifying, understanding, and anticipating the domain for
                                      which you are responsible and taking action to deter foreign and domestic
                                      terrorists from causing harm or disrupting the airline system and/or its
                                      users
                                  • 	 Ensuring that an incident response capability is coordinated to swiftly and
                                      effectively restore freedom of movement
                                  • 	 Operating your airport(s) as a leading edge, performance-based
                                      organization that consistently meets performance objectives while
                                      practicing outstanding stewardship of your resources both ﬁscal and
                                      physical
                                  • 	 Minimizing the impact of the aviation security processes on the traveling
                                      public by the reduction of wait times
                                  • 	 Coordinating crisis preparedness and response operations with state and
                                      local authorities
                                  • 	 Developing initiative to implement model workplace components
                                      supportive of conﬂict management, vertical and lateral communication,
                                      employee involvement and change management



                             According to TSA ofﬁcials, the use of boilerplate language to justify performance
                             awards for FSDs and DFSDs is well founded because both positions, regardless
                             of location, have the same duties and responsibilities of providing day-to-day
                             operational direction for federal security at U.S. airports. However, use of the
                             above language defeats the purpose of an awards program if it is to recognize and
                             reward an individual for performance that surpasses that of colleagues. Rather,
                             for each TSES employee recommended for a cash award related to an annual
                             performance appraisal, detailed justiﬁcations speciﬁc to that employee and unique
                             to the employee’s job and duty location should be provided.



22
   Most FSDs and DFSDs responsible for aviation security at the largest U.S. airports are in the TSES ranks. Those at smaller U.S. airports
are generally not at the TSES level.


Page 20                 Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                    Program and Executive Performance Awards
                            Transportation Senior Executive Service Non-Monetary Performance Awards

                            In addition to the honorary awards distributed at the awards ceremony, TSES
                            employees are eligible for non-monetary performance awards. Only two
                            individual time-off awards, however, were distributed to TSES employees. One
                            award for eight hours was made in FY 2003, and the other award for 12 hours was
                            made in FY 2004. Of 123 TSES employees as of March 1, 2004, less than two
                            percent received a time-off award.

                            Non-Executive Employee Transportation Security Administration
                            Performance Awards

                            Non-executive employees at TSA also are eligible for monetary and non-
                            monetary awards. We intended to analyze and compare the number and amounts
                            of monetary performance awards distributed by TSA to non-executive employees
                            against those distributed to its executive employees. However, the Consolidated
                            Uniform Payroll System (CUPS), TSA’s payroll system managed by DOT,
                            records all lump sum payments to employees as an award, whether for an actual
                            performance award or a pay increase. As a result, we could not accurately identify
                            non-executive TSA employees who received cash performance awards since
                            TSA’s inception.

                            TSA’s personnel management system is exempted from the provisions of Title 5.
                            Therefore, unlike other federal government employees, TSA employees are not
                            eligible for the annual cost of living adjustment. Rather, all TSA non-executive
                            employees with satisfactory performance evaluations received a Comparability
                            Equivalent Increase (CEI). In 2004, each CEI was equivalent to 2.7 percent of
                            an employee’s basic pay. For those employees who were at the top of their pay
                            band, the CEI was given in a lump sum payment. For all other employees, the
                            receipt of a CEI resulted in an actual 2.7 percent increase in their basic annual
                            pay. In addition to CEIs, in FY 2004, TSA gave some non-executive employees
                            Transportation Success Increases (TSI), which were based on organizational
                            successes. TSIs were one-half percent pay increases given to all employees who
                            had satisfactory performance evaluations and were hired by TSA prior to July
                            4, 2003.23 Similar to CEIs, those employees who were at the top of their pay
                            band were given the one-half percent TSI in a lump sum payment. For all other
                            employees, the receipt of a TSI resulted in an actual one-half percent increase in
                            their basic annual pay.

23
  An employee must have worked 90 days to receive a performance appraisal. July 4, 2003, was considered 90 days prior to when
performance appraisals were performed on September 30, 2003.


     Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                   Page 21
                                 Program and Executive Performance Awards
                                Both the lump sum payments and the performance awards were recorded in CUPS
                                as cash awards. As a result, we could not distinguish which lump sum payments
                                were increases and which were performance awards. Additionally, performance
                                awards made to employees who transferred from DOT to TSA and paid in FY
                                2002 prior to their transfer were recorded as an award in CUPS. For example, an
                                award received by a non-executive employee in October 2001 while working for
                                DOT, but who later transferred to TSA, was recorded in TSA’s payroll system.
                                However, TSA’s payroll system does not make the distinction that this award was
                                given to the employee while being employed at DOT. As a result, we could not
                                determine whether the performance award was distributed to the employee while
                                working at DOT or TSA.

                                Although unable to provide speciﬁc information on monetary performance awards
                                distributed to employees, TSA provided data that showed the agency distributed
                                2,001 performance awards and pay increases to 1,423 non-executive employees
                                from August 2002 through February 2004. Of 50,878 non-executive employees,24
                                three percent received an award or pay increase. Because this CUPS data included
                                both awards and pay increases, the actual number of non-executive employees
                                receiving an award would have to be less than three percent. Compared to the
                                76% of eligible TSES employees who received a monetary performance award,
                                there is a wide disparity in the percentage of non-executive employees who
                                received monetary awards.

                                TSA was able to provide information on non-monetary time-off awards
                                distributed to non-executive employees. From August 2002 through February
                                2004, TSA distributed 3,964 time-off awards, totaling 34,929 hours, to 3,607
                                non-executive employees. Of 50,878 current non-executive employees, seven
                                percent received a time-off award. While this is higher than the three percent of
                                non-executive employees who received a monetary award and the two percent
                                of TSES employees who received a time-off award, it is still signiﬁcantly low.
                                In addition, the monetary value of those awards was minimal. Each employee
                                received between four and 40 hours. To estimate the average monetary value of
                                each hour, we divided the maximum pay for pay band I, or $83,600, by 2,080
                                hours.25 Based on our calculation, the average value was approximately $40 for
                                each hour. Therefore, the time-off awards had an average monetary value between
                                $160 and $1,600.


24
     As of March 2, 2004.

25
     Equivalent to the number of hours in a federal work year.




Page 22                    Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                       Program and Executive Performance Awards
                       Based on the less than three percent of non-executive employees who received a
                       monetary award, the seven percent of non-executive employees who received a
                       time-off award, and the estimated average monetary value of each time-off award,
                       a substantial inequity exists in TSA’s performance recognition program between
                       executive and non-executive employees.

                       Conclusion and Recommendations
                       The ﬁrst annual TSA Awards Program complied with the laws, regulations, and
                       policies applicable to federal awards programs. TSA did not, however, obtain
                       competitive bids or shop for the best price when selecting a site for the awards
                       ceremony and reception, as well as other services and products associated with
                       the ceremony. Consequently, the costs of the ceremony and reception were higher
                       than necessary. While federal agencies have considerable discretion in how much
                       they choose to spend, OPM noted that TSA’s choices when planning and hosting
                       the awards program appeared to place it at the higher end of the spectrum when
                       compared to those of other federal agencies.

                       Also, although TSA’s executive performance awards fell within the conﬁnes of
                       permissible practices, the number of employees and the average each received
                       put TSA on the upper perimeter of federal agency practices. In addition,
                       the legitimacy of such large awards is called into question by the lack of an
                       appropriate selection process and the reliance on boilerplate justiﬁcations that
                       could be applicable to anyone.

                       Finally, TSA was not able to provide reliable or comprehensive data for its
                       monetary awards and performance recognition program for employees in
                       lower, non-executive grades. However, the data that TSA did provide, though
                       incomplete, suggest that a substantial inequity exists between the performance
                       recognition awards of executive and non-executive employees.

                       We recommend that the TSA Administrator:

                       Recommendation 1: Solicit competitive bids for all services and products,
                       including the venues or sites, for the annual awards program.

                       Recommendation 2: Ensure that each executive performance award is supported
                       by a justiﬁcation speciﬁc to the employee and with attendant additional detail to
                       support awards in exceptional amounts.

                       Recommendation 3: Provide more equitable treatment for lower graded
                       employees when making performance award decisions.

Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 23
                            Program and Executive Performance Awards
          Appendix A
          Breakdown of Costs Associated with the First annual Transportation Security Administration
          Awards Program

                                                                                                       Percentage of Total
                       Category and Type of Cost                            Amount (in Dollars)
                                                                                                             Costs
  GRAND HYATT
            Lodging                                                                     $36,735.20              8%
            Ballroom rental                                                              $5,000.00              1%
            Audio Visual                                                                $20,145.50              4%
            Food and Beverage                                                           $47,852.40             10%
            Miscellaneous                                                                  $840.93             <1%
  TOTAL                                                                                $110,574.03             24%

  RENAISSANCE HOTEL
            66 rooms (1 night)                                                           $9,900.00              2%

  HELIX HOTEL
            60 rooms on Nov. 18; 55 rooms on Nov. 19                                    $14,835.00              3%

  TRANSPORTATION AND RELATED ALLOWANCES
            TSA Employees                                                              $112,028.34             24%
            Employee Guests                                                             $25,119.37              5%
  TOTAL                                                                                $137,147.71             30%

  HONORARY AWARDS
       Plaques (703)                                                                    $75,223.06             16%
            Valor and Lifetime Achievement Awards (2)                                      $512.91             <1%
            Industry Awards (30)                                                         $3,796.24              1%
            Lapel Pins (1,800)                                                           $2,235.12              1%
  TOTAL                                                                                 $81,767.33             18%

  ADMINISTRATIVE
            Private Events Planning Company                                             $85,551.59             19%
            Photographs                                                                  $5,195.56              1%
            Programs                                                                    $12,798.00              3%
  TOTAL                                                                                $103,545.15             22%

  SINGER (for National Anthem)                                                               $75.00            <1%

  CAPITAL TOURS (for local shuttle buses)                                                $3,900.00              1%


  TOTAL COSTS ASSOCIATED WITH AWARDS
                                                                                       $461,744.22            100%
  PROGRAM


Page 24                Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                                   Program and Executive Performance Awards
        Appendix B
        Honorary Awards Presented at the First Annual Transportation Security Administation
        Awards Program


                                                             TSA Pay Band

                                                                                                                                       Percentage
                                                                                                               Not        Total
Type of Award      B      C       D      E     F      G      H       I      J     K      L     TSES    N/A                              of Total
                                                                                                              Known      Awards
                                                                                                                                        Awards

  Individual
    Bronze          1      0     40      4     6     27      19      11     25    10     1       3      0        3         150            26%
     Silver         0      0      3      0     3      1       3       3     23    17     1       8      1        5          68            12%
     Gold           0      0      3      1     0      0       3       0      9     4     0       3      0        3          26             4%
   TOTAL                                                                                                                   244            41%
    Group
    Bronze          0      1     39      1     18    13      12      9      49    19     1       0       7       17        186            32%
     Silver         0      0      6      7      4     7       5      9      13     6     0       1      10        1         69            12%
     Gold           0      0      3      0      2     5       3      7       7    11     1       2       1       15         57            10%
   TOTAL                                                                                                                   312            53%
Organizational
    Bronze                                                                                                                 13             2%
    Silver                                                                                                                  8             1%
     Gold                                                                                                                   9             2%
   TOTAL                                                                                                                   30             5%
   Lifetime
                                                                                   1                                        1            0.1%
 Achievement
    Valor                                             1                                                                     1            0.1%
   TOTAL            1      1     95     13     33    54      45      39    126    68     4      17      19       44        588
 Percentage of
                  .1%    .1%     16%    2%    6%     9%      8%     7%    21%    12%    1%      3%     3%       7%
     Total

* The total number of Honorary Awards on the bottom row does not equal 588 because the Organizational Awards were given to general
 TSA units as a whole and not to individual employees. Accordingly, the corresponding percentages on the bottom row do not equal 100
                                                              percent.




            Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards                        Page 25
                                        Program and Executive Performance Awards
                 Appendix C
                 Examples of a Transportation Security Executive Service Performance Award
                 Recommendation Form and Performance Plan for a Federal Security Director




Page 26   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
Appendix C
Examples of a Transportation Security Executive Service Performance Award
Recommendation Form and Performance Plan for a Federal Security Director




   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 27
                               Program and Executive Performance Awards
                 Appendix C
                 Examples of a Transportation Security Executive Service Performance Award
                 Recommendation Form and Performance Plan for a Federal Security Director




Page 28   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
Appendix C
Examples of a Transportation Security Executive Service Performance Award
Recommendation Form and Performance Plan for a Federal Security Director




   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 29
                               Program and Executive Performance Awards
                Appendix C
                Examples of a Transportation Security Executive Service Performance Award
                Recommendation Form and Performance Plan for a Federal Security Director




Page 30   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
                                                                                          Appendix D
                                                                                          Management Comments




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards    Page 31

                            Program and Executive Performance Awards 

Appendix D
Management Comments




Page 32       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                          Program and Executive Performance Awards
                                                                                          Appendix D
                                                                                          Management Comments




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards    Page 33

                            Program and Executive Performance Awards 

Appendix D
Management Comments




Page 34       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                          Program and Executive Performance Awards
                                                                   Appendix E
                                                                   OIG Evaluation of Management Comments



                       We evaluated TSA’s written comments and made changes to the report where
                       deemed appropriate. Below is a summary of TSA’s written response to our
                       recommendations and our analysis of those comments.

                       TSA Response: TSA points out that in other federal agencies the most high
                       proﬁle achievements with a substantial beneﬁt to a department are typically
                       recognized in a department-wide setting, while lower level achievements are
                       recognized in a component-wide setting. Because DHS did not expect to conduct
                       an awards program and TSA leadership wanted deserving employees to be
                       acknowledged on its second anniversary, TSA incurred the full cost of such
                       activity. Furthermore, TSA believes that the only evidence present to suggest the
                       activity conducted by TSA was “avoidably excessive” was the opinion of OPM
                       ofﬁcials that the costs appeared higher than what other agencies typically spend.

                       OIG Evaluation: We acknowledge the value of publicly recognizing the
                       achievements of staff and consider it admirable that TSA funded and carried out
                       an awards ceremony in the absence of a department-wide event. We noted in the
                       ﬁnal report that DHS was informed of TSA’s plan to hold an awards ceremony.
                       However, TSA is wrong to ascribe the phrase “avoidably excessive” to unnamed
                       OPM ofﬁcials. OPM ofﬁcials said that the costs appeared higher than what other
                       agencies typically spend. They also noted, and we reported, that the rules give an
                       agency considerable discretion. The phrase “unnecessarily expensive” appearing
                       in the ﬁnal version of this report was our judgment and we afﬁrm that, in our
                       opinion, the overall costs of the awards ceremony were unnecessarily expensive
                       when considering the high costs of certain items procured by TSA as noted in the
                       report.

                       Recommendation 1: Solicit competitive bids for all services and products,
                       including the venues or sites, for the annual awards program.

                       TSA Response: TSA believes its procurement approach to this event was
                       appropriate because experience has indicated that competition in and of itself
                       does not guarantee the best value or most reasonable price and because it
                       was exempted from requiring competition if below $100,000. While TSA
                       acknowledges and agrees that it should procure services and products through a
                       competitive process whenever possible and reasonable, it maintains that it needs
                       the ﬂexibility to procure services and products through a non-competitive process
                       whenever warranted by circumstances.




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 35
                            Program and Executive Performance Awards
Appendix E
OIG Evaluation of Management Comments



                    OIG Evaluation: Competitive bidding provides the best way to identify the
                    best value offering. We continue to maintain that TSA should solicit competitive
                    bids for services and products whenever feasible. Even though TSA might assert
                    an exemption as a matter of law, it is not required to use the exemption on every
                    procurement below $100,000. Although TSA and the OIG differ regarding these
                    procurement issues in the case of its ﬁrst awards ceremony, we accept TSA’s
                    acknowledgement and agreement with the report’s “suggestion” as sufﬁcient
                    to resolve this recommendation. We will close this recommendation after TSA
                    provides evidence that it has used the competitive process for its next awards
                    ceremony. Recommendation 1 is resolved - open.

                    Recommendation 2: Ensure that each executive performance award is supported
                    by a justiﬁcation speciﬁc to the employee and with attendant additional detail to
                    support awards in exceptional amounts.

                    TSA Response: TSA acknowledges that improvement is needed and has a
                    goal to improve the preparation and review of documentation available to
                    justify and support executive performance bonuses. To further its goal of
                    providing justiﬁcations that support a linkage between agency results and
                    individual accountability, TSA is complying with the newly instituted OPM
                    performance based pay system for executives that includes a more rigorous
                    performance evaluation system. In addition, if approved by OPM and the Ofﬁce
                    of Management and Budget, TSA will adopt a performance system established by
                    DHS.

                    OIG Evaluation: TSA’s plan to improve executive performance award
                    justiﬁcations that support a linkage between agency results and executive
                    employees’ individual performance is responsive to this recommendation. We
                    will close this recommendation when TSA provides evidence that individualized
                    justiﬁcations have been submitted in support of executive performance awards
                    during the next executive performance award cycle. Recommendation 2 is
                    resolved – open.

                    Recommendation 3: Provide more equitable treatment for lower graded
                    employees when making performance award decisions.

                    TSA Response: TSA acknowledges that the distribution of awards during
                    the ﬁrst performance award cycle was inadequate and agrees with the ﬁnding
                    that improvement is needed. While awaiting the ﬁnal DHS-wide performance
                    management system, TSA is working to ensure that the upcoming performance



Page 36        Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                           Program and Executive Performance Awards
                                                                   Appendix E
                                                                   OIG Evaluation of Management Comments



                       award cycle has the appropriate systems, processes, and reviews in place to
                       provide equitable treatment for all TSA employees.

                       OIG Evaluation: TSA concurs with our recommendation. We will close this
                       recommendation once TSA provides evidence of the implementation of its plan
                       to provide more equitable treatment for lower graded employees during the
                       upcoming performance award cycle. Recommendation 3 is resolved – open.




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards   Page 37
                            Program and Executive Performance Awards
Appendix F
Recommendations



                   Recommendation 1: Solicit competitive bids for all services and products,
                   including the venues or sites, for the annual awards program.

                   Recommendation 2: Ensure that each executive performance award is supported
                   by a justiﬁcation speciﬁc to the employee and with attendant additional detail to
                   support awards in exceptional amounts.

                   Recommendation 3: Provide more equitable treatment for lower graded
                   employees when making performance award decisions.




Page 38       Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                          Program and Executive Performance Awards
                                                                              Appendix G
                                                                              Major Contributors to this Report



                       Carlton Mann, Chief Inspector, Department of Homeland Security, Ofﬁce of
                       Inspections, Evaluations, and Special Reviews

                       Meredith L. Megles, Senior Inspector, Department of Homeland Security, Ofﬁce
                       of Inspections, Evaluations, and Special Reviews

                       Andrew Hoffman, Inspector, Department of Homeland Security, Ofﬁce of
                       Inspections, Evaluations, and Special Reviews




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards      Page 39
                            Program and Executive Performance Awards
Appendix H
Report Distribution



                      Department of Homeland Security

                      The Honorable Tom Ridge

                      Secretary

                      Department of Homeland Security


                      Admiral James Loy

                      Deputy Secretary

                      Department of Homeland Security


                      Mr. Joe Whitley, Esq.

                      General Counsel

                      Department of Homeland Security


                      Mr. Duncan Campbell

                      Chief of Staff

                      Department of Homeland Security


                      Mr. Asa Hutchinson

                      Under Secretary for Border and Transportation Security

                      Department of Homeland Security


                      Ms. Anna Dixon

                      Management OIG Liaison

                      Department of Homeland Security


                      Ms. Susan K. Neely

                      Assistance Secretary for Public Affairs

                      Department of Homeland Security


                      Mr. Bill Fairweather

                      Deputy Chief Security Ofﬁcer

                      Department of Homeland Security


                      Transportation Security Administration

                      Rear Admiral David M. Stone
                      Assistant Secretary
                      Transportation Security Administration




Page 40          Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                             Program and Executive Performance Awards
                                                                                              Appendix H
                                                                                              Report Distribution



                       Ms. Gale Rossides
                       Associate Administrator for the Chief Support Systems Directorate
                       Transportation Security Administration

                       Mr. Chad Wolf
                       Acting Assistant Administrator for Transportation Security Policy
                       Transportation Security Administration

                       Mr. Richard Whitford
                       Assistant Administrator for Human Resources
                       Transportation Security Administration

                       Ms. Elaine Duke
                       Deputy Assistant Administrator for Acquisition
                       Transportation Security Administration

                       Ms. Francine Kerner
                       Chief Counsel
                       Transportation Security Administration

                       Mr. Robert W. Gardner
                       Assistant Administrator for Finance and Administration
                       Transportation Security Administration

                       Mr. Frank McNally
                       OIG Liaison
                       Transportation Security Administration

                       Ofﬁce of Management and Budget

                       Mr. David Haun
                       Chief, Homeland Security Branch

                       Mr. Jim Holm
                       DHS OIG Program Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as appropriate




Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards        Page 41
                            Program and Executive Performance Awards
Page 42   Assessment of Expenditures Related to the First Annual Transportation Security Administration Awards
                                      Program and Executive Performance Awards
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
